DOE/IG-0544




INSPECTION
                                     INSPECTION OF THE
  REPORT                       ACCOUNTABILITY AND CONTROL
                              OF SEALED RADIOACTIVE SOURCES
                                AT SELECTED DEPARTMENT OF
                                       ENERGY SITES




                                       MARCH 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                         March 12, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Report on “Inspection of the Accountability and
                      Control of Sealed Radioactive Sources at Selected Department of Energy
                      Sites”

BACKGROUND

Sealed radioactive sources consist of radioactive material either contained within a sealed
capsule, sealed between layers of non-radioactive material, or firmly fixed to a non-radioactive
surface. Statistics in the United States Radiation Accident Registry show that of the 246 major
radiation accidents in the United States between 1944 and 2000, 110 were caused by sealed
radioactive sources.

Sealed radioactive sources are used in large numbers at Department of Energy (DOE) facilities,
including those managed by the National Nuclear Security Administration (NNSA), most
commonly for the testing and calibration of radiation detection instrumentation. In view of the
potential health and safety hazards associated with sealed radioactive sources, DOE is required
by regulation to establish and implement strict accountability and control over the sealed
radioactive sources at its facilities. According to DOE officials, most DOE sealed source
accidents have involved “micro- or milli-curie” sources, which contain relatively low levels of
radiation.

The objective of our inspection was to review the adequacy of procedures implemented by DOE and
NNSA officials and their contractors for controlling, safeguarding and disposing of sealed
radioactive sources.

RESULTS OF INSPECTION

We found no evidence that DOE’s work with sealed radioactive sources had adversely impacted the
safety and health of DOE and contractor employees or the public. However, we found that actions
are needed by DOE line managers to assure that sealed radioactive sources are properly controlled,
inventoried and leak-tested in accordance with the requirements in applicable Federal rules and local
site procedures.
Also, we observed that management contractors at DOE sites are making decisions on the
disposition of their unwanted sealed radioactive sources, which includes recycle and reuse options,
as well as waste disposal, with minimal input from DOE officials. As a result, in the absence of a
Department-wide approach to disposition of sealed radioactive sources, there is no assurance that
cost-effective alternatives are being considered. Although each DOE site has responsibility for
determining how it will dispose of its unwanted sealed radioactive sources, DOE has not issued
specific guidelines to ensure there are viable disposition paths for surplus sealed radioactive sources.
Also, some sites are not aware of an organization, the Nonactinide Isotopes and Sealed Source
Management Group, which could possibly provide disposition assistance.

We recommended that management take appropriate action to assure that sealed radioactive sources
are properly controlled, inventoried and leak-tested. We also recommended that NNSA and the
Office of Environmental Management coordinate actions to assist sites to identify cost-effective
reuse and disposal alternatives for unwanted sealed radioactive sources.

MANAGEMENT REACTION

Management concurred with our recommendations and agreed to take corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Assistant Secretary for Environmental Management
INSPECTION OF THE ACCOUNTABILITY AND CONTROL OF
SEALED RADIOACTIVE SOURCES AT SELECTED
DEPARTMENT OF ENERGY SITES

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective………………………………… 1

              Observations and Conclusions……………………………        1


              DETAILS OF FINDING

              Internal Controls Could Be Improved…………………….   3


              OBSERVATION

              Disposal Guidelines Not Issued…………………………..     5

              Disposition Issues Not Adequately
               Communicated……………………………………………                 6

              NISSMG Has Role In Source Disposition…………….…   6


              RECOMMENDATIONS …………………………………... 7


              MANAGEMENT/INSPECTOR COMMENTS …………... 8


              APPENDICES

              A. Scope and Methodology……………………………….          9

              B. Lack of Adherence to Requirements…………………    10

              C. Site Corrective Actions………………………………… 14

              D. Management Comments………………………………             16
Overview
INTRODUCTION       Sealed radioactive sources consist of radioactive material either
AND OBJECTIVE      contained within a sealed capsule, sealed between layers of non-
                   radioactive material, or firmly fixed to a non-radioactive surface.
                   Statistics in the United States Radiation Accident Registry, which
                   is maintained by the Radiation Emergency Assistance Center,
                   show that of the 246 major radiation accidents in the United States
                   between 1944 and 2000, 110 were caused by sealed radioactive
                   sources. The Radiation Emergency Assistance Center is operated
                   by the Oak Ridge Institute for Science and Education (ORISE) in
                   Oak Ridge, Tennessee.

                   Sealed radioactive sources are used in large numbers at
                   Department of Energy (DOE) facilities, including those managed
                   by the National Nuclear Security Administration (NNSA), most
                   commonly for the testing and calibration of radiation detection
                   instrumentation. In view of the potential health and safety hazards
                   associated with sealed radioactive sources, DOE is required by
                   regulation to establish and implement strict accountability and
                   control over the sealed radioactive sources at its facilities.
                   According to DOE officials, most DOE sealed source accidents
                   have involved “micro- or milli-curie” sources.

                   In addition to this inspection, the Office of Inspector General
                   (OIG) has conducted two reviews regarding the control and
                   accountability of sealed radioactive sources. In DOE/OIG-0529,
                   “Accounting For Government-Owned Nuclear Materials Provided
                   to Non-Department Domestic Facilities,” dated October 26, 2001,
                   we reported that DOE’s Nuclear Materials Management and
                   Safeguards System did not contain information on all sealed
                   sources in the hands of domestic licensees. Also, in a draft report
                   entitled “Accounting for U.S. Government-owned Sealed Sources
                   Provided to Foreign Facilities,” which was issued for management
                   comment, we reported that DOE did not maintain a current
                   database of sealed sources that it loaned to foreign entities.

                   The objective of our inspection was to review the adequacy of
                   procedures implemented by DOE and NNSA officials and their
                   contractors for controlling, safeguarding and disposing of sealed
                   radioactive sources.

OBSERVATIONS AND   We concluded that actions are needed by DOE’s line managers
CONCLUSIONS        to assure that sealed radioactive sources are properly controlled,
                   inventoried and leak tested in accordance with the requirements in
                   applicable Federal rules and local site procedures. We found no
                   evidence that DOE’s work with sealed radioactive sources had
                   adversely impacted the safety and health of DOE and contractor

Page 1                    Inspection of the Accountability and Control of Sealed
                          Radioactive Sources at Selected Department of
                          Energy Sites
         employees or the public. However, at each of the six DOE sites we
         visited, we found that internal controls regarding the accountability,
         inventory and leak testing of sealed radioactive sources could be
         improved.

         Also, we observed that management contractors at DOE sites are
         making disposition decisions for their unwanted sealed radioactive
         sources with minimal input from DOE. Disposition includes recycle
         and reuse options for sealed radioactive sources, as well as waste
         disposal. As a result, there is no assurance that cost-effective
         alternatives resulting from a Department-wide approach to disposition
         of sealed radioactive sources are being considered. Each DOE site has
         responsibility for determining how it will dispose of its unwanted
         sealed radioactive sources. However, DOE has not issued specific
         guidelines to ensure there are viable disposition paths for surplus
         sealed radioactive sources, and some sites are not aware of an
         organization, the Nonactinide Isotopes and Sealed Source
         Management Group (NISSMG), that could possibly provide
         disposition assistance. In comments dated February 14, 2002, to our
         draft report, the Under Secretary for Energy, Science and Environment
         stated that since our review, NISSMG has engaged in additional
         outreach activities which have increased NISSMG’s visibility and
         “enhanced communications of the NISSMG technical resource to DOE
         site nuclear material managers.”




Page 2                                                            Overview
Details of Finding
                                       Radiation protection standards, limits, and program requirements for
                                       protecting individuals from ionizing radiation resulting from the
                                       conduct of DOE’s activities are found in Part 835, Title 10, Code of
                                       Federal Regulations, “Occupational Radiation Protection” (10 C.F.R.
                                       835). This regulation was promulgated by DOE to implement specific
                                       requirements of the Price-Anderson Amendments Act of 1988 (Price-
                                       Anderson Amendments Act), which, among other things, establishes
                                       requirements for controlling and leak testing sealed radioactive
                                       sources. DOE Guide 441.1-13, “Sealed Radioactive Source
                                       Accountability and Control Guide,” provides further guidance for
                                       establishing and operating a radioactive source accountability and
                                       control program. Key components of such a program include receipt,
                                       labeling, storage, inventory, leak testing, handling and disposal.

Internal Controls                      We found that internal controls to ensure the appropriate
Could Be Improved                      accountability, inventory, leak testing, and labeling of sealed
                                       radioactive sources could be improved. At each of the sites we visited,
                                       we identified sources that were not maintained in accordance with
                                       either the requirements in 10 C.F.R. 835 or the requirements
                                       established by local site procedures. Failure to adhere to local site
                                       procedures regarding nuclear materials could potentially be a
                                       regulatory violation under the Price Anderson Amendments Act.

                                       We reviewed the implementation by DOE officials and contractor
                                       personnel at six DOE sites of requirements in 10 C.F.R. 835 and local
                                       site procedures concerning the receipt, inventory, leak testing,
                                       labeling, storage, and handling of sealed radioactive sources. These
                                       six sites were: the Nevada Test Site (NTS); the Rocky Flats Closure
                                       Project Site (Rocky Flats); the Oak Ridge National Laboratory
                                       (ORNL); the Y-12 National Security Complex (Y-12); the Eastern
                                       Tennessee Technology Park (ETTP), formerly known as K-25; and the
                                       Pantex Plant (Pantex).

                                       For our review, we selected and examined a judgmental sample of 110
                                       accountable sealed radioactive sources of the total of approximately
                                       2300 accountable sources at these six sites. 1 We selected the sources
                                       from inventory lists received upon our arrival at each site. Our sample
                                       was comprised of different types of sources, i.e., sources containing
                                       different isotopes; sources maintained by various Source Custodians;
                                       sources controlled by various contractors and subcontractors; and
                                       sources stored at various locations. Although not the primary focus of
                                       our review, we identified 24 non-accountable sealed radioactive

1
    A source is “accountable” if it has a half-life equal to or greater than 30 days and an isotopic activity equal to or
    greater than quantities specified in 10 C.F.R. 835. Accountable sealed radioactive sources in service must be
    inventoried and leak tested at six-month intervals. Non-accountable sources contain lower quantities of isotopic
    activity and are not subject to sealed source requirements of 10 C.F.R. 835.


Page 3                                                                                           Details of Finding
         sources at one site and one non-accountable sealed radioactive source
         at another site that were not maintained in accordance with local site
         procedures.

         Approximately 32 percent (35 of 110) of the accountable sealed
         radioactive sources that we selected for review at the six sites were not
         maintained in accordance with requirements in either 10 C.F.R. 835 or
         local site procedures. Although our sample selection methodology did
         not result in a statistically random sample, the sources we examined at
         each site were a cross-section of the population of sources at the site.
         Accordingly, given the large numbers of sealed radioactive sources at
         each of these sites, the results from our sample suggests additional
         sources at these sites might not be appropriately controlled,
         inventoried, leak tested, or labeled.

         The following are examples of the lack of adherence to requirements
         in 10 C.F.R. 835 and local site procedures for sealed radioactive
         sources that we observed during our site visits. Additional examples
         involving each of the sites we visited are discussed in Appendix B.

         At ETTP and NTS we identified accountable sealed radioactive
         sources that were not inventoried or leak tested as required by 10
         C.F.R. 835. We found no evidence that officials at these sites were
         aware prior to our visit that these sources had not been inventoried or
         leak tested. At Pantex, we identified a Source Custodian who did not
         adhere to a local site procedure that required accountable sealed
         radioactive sources to be tracked/logged-out before they were removed
         from their designated storage location. At Rocky Flats, we identified
         55 sources that were listed on the site’s sealed radioactive source
         database as “missing over 90 days.” Two of the sources were listed as
         accountable sources, while the remaining 53 sources were listed as
         non-accountable sources. At the time of our review, 54 of the 55
         sources could not be individually identified because the identification
         labels had been removed from the sources. The remaining source was
         subsequently located in a controlled radioactive waste storage area. At
         ETTP, Y-12, ORNL, and Pantex we also identified accountable and
         non-accountable sealed radioactive sources that were not labeled in
         accordance with local site requirements.

         At the conclusion of each site visit, we met with the appropriate DOE
         and contractor officials to discuss the internal control weaknesses
         involving sealed radioactive sources that we had identified at their site.
         Officials at each site told us that they would review the weaknesses
         that we had identified and would take appropriate corrective actions.
         We were subsequently notified by NTS, Pantex, and Rocky Flats
         officials of the corrective actions they had implemented in response to



Page 4                                                   Details of Finding
Observation
                                    each of the weaknesses we had identified at their sites. Although the
                                    actions taken will correct some of the weaknesses we identified,
                                    additional corrective actions are still needed. Specific actions taken by
                                    each site are discussed in Appendix C.

                                    We discussed the results of our site visits with a Health Physicist in the
                                    Office of Environment, Safety and Health (EH) who is knowledgeable
                                    in matters concerning sealed radioactive sources. He also assists the
                                    EH Office of Price-Anderson Enforcement in its reviews of potential
                                    violations of the Price-Anderson Amendments Act at DOE sites,
                                    including sites managed by NNSA. The Health Physicist told us that
                                    the examples we described involving the failure to conduct required
                                    leak tests of accountable sealed radioactive sources are violations of 10
                                    C.F.R. 835, and might also have Price-Anderson Amendments Act
                                    implications. He said that, at a minimum, the violations should be
                                    entered into the site’s local noncompliance database and identified as
                                    potential Price-Anderson Amendments Act violations. 2 He added that
                                    if the violations had been identified previously, but not corrected, this
                                    might indicate a systemic problem that would rise to a level that would
                                    require reporting in the Office of Price-Anderson Enforcement’s
                                    Department-wide Noncompliance Tracking System.

OBSERVATION                         We observed that management contractors at the DOE sites we
                                    reviewed are making disposition decisions for their unwanted sealed
                                    radioactive sources with minimal input from DOE. As a result, there
                                    is no assurance that cost-effective alternatives resulting from a
                                    Department-wide approach to disposition of sealed radioactive sources
                                    are being considered.

                                    Each DOE site has responsibility for determining how it will dispose
                                    of its unwanted sealed radioactive sources. However, DOE has not
                                    issued specific guidelines for disposition of sealed radioactive sources,
                                    and some sites are not aware of an organization, NISSMG, that could
                                    possibly provide disposition assistance.

Disposal Guidelines                 The DOE Office of Policy, now the Office of Policy and International
Not Issued                          Affairs, recently issued a draft DOE order, DOE O 410.X, “Nuclear
                                    Materials Stewardship,” for comment. According to the draft Order,
                                    requirements for stewardship of the nuclear materials covered by the
                                    Order will be contained in a DOE manual. We were told, however,
                                    that this manual, DOE M 410.X-X, “Nuclear Materials Stewardship
                                    Manual,” which will have specific guidelines regarding source

2
    Violations of the DOE regulations that implement Price-Anderson Amendments Act provisions, such as violations
    of 10 C.F.R. 835, are viewed as potential violations of the Price-Anderson Amendment Act. Only the EH Office
    of Price-Anderson Enforcement can determine if a potential violation is, in fact, a Price-Anderson Amendments
    Act violation.


Page 5                                                                                         Observation
                                     disposal, will not be issued for comment until sometime in FY 2002,
                                     following review of the comments on the draft Order. At present, the
                                     draft Order contains no specific reference to source disposition issues.

Disposition Issues                   The Office of Nuclear Material and Spent Fuel (NMSF), Office of
Not Adequately                       Environmental Management (EM), is responsible for developing
Communicated                         DOE policy for disposition of sealed radioactive sources. According
                                     to the NMSF Director, there has been insufficient communication on
                                     disposition issues between his office and DOE sites not involved in
                                     closure actions. He said that in light of the potential benefit to DOE,
                                     the various sites that have unwanted sealed radioactive sources should
                                     make a concerted effort to communicate and integrate source
                                     disposition activities with his office, as well as with NISSMG.

NISSMG Has Role In                   NISSMG, which was established by the EM Deputy Assistant
Source Disposition                   Secretary for Integration and Disposition, is managed by DOE’s
                                     Albuquerque Operations Office (Albuquerque). NISSMG’s role is to
                                     provide an integrated, corporate structure for achieving EM missions
                                     through effective and integrated cradle-to-grave management of
                                     nonactinide isotopes and sealed source materials. 3 A specific objective
                                     of NISSMG is to enhance worker and public safety by reducing the
                                     inventories of excess nonactinide isotopes and sealed source materials
                                     and thereby reduce the potential for loss of control of these materials.

                                     According to DOE officials, the first choice for disposition of excess
                                     materials is recycle and reuse. When recycle and reuse are not viable
                                     options, NISSMG does assist the sites in disposing of excess materials
                                     as waste. However, items that have already formally been declared
                                     waste are outside the scope of NISSMG and should be addressed by
                                     appropriate waste management organizations.

                                     None of the Radiation Control Managers at the sites we visited
                                     mentioned NISSMG when discussing disposition alternatives for
                                     sealed radioactive sources. Also, an Albuquerque official who had
                                     responsibility for disposition of sealed radioactive sources told us that
                                     he had no idea that the NISSMG group had such responsibilities.

                                     We were told that NISSMG operates with a small permanent staff and
                                     draws resources from DOE and DOE laboratories and sites to manage
                                     its technical activities. We were also told, however, that because of
                                     limited resources NISSMG has focused its attention on closure sites
                                     such as Rocky Flats, and has provided only limited assistance to non-
                                     closure sites within DOE.



3
    Nonactinide isotopes consist of radioactive elements with atomic numbers less than 90.


Page 6                                                                                       Observation
RECOMMENDATIONS   We recommend that the Under Secretary for Energy, Science and
                  Environment:

                  1. Ensure that line management officials under his purview take
                     appropriate action to assure that sealed radioactive sources are
                     properly controlled, inventoried and leak tested in accordance with
                     the requirements in applicable Federal rules and local site
                     procedures.

                  2. Direct the Assistant Secretary for Environmental Management to
                     coordinate with the National Nuclear Security Administration to
                     develop and implement actions to assist sites to identify cost-
                     effective reuse and disposal alternatives for unwanted sealed
                     radioactive sources.

                  We also recommend that the Administrator, National Nuclear Security
                  Administration:

                  3. Ensure that line management officials under his purview take
                     appropriate action to assure that sealed radioactive sources are
                     properly controlled, inventoried and leak tested in accordance with
                     the requirements in applicable Federal rules and local site
                     procedures.

                  4. Coordinate with the Assistant Secretary for Environmental
                     Management to develop and implement actions to assist sites to
                     identify cost-effective reuse and disposal alternatives for unwanted
                     sealed radioactive sources.




Page 7                                                          Recommendations
MANAGEMENT   Management concurred with our recommendations and identified
COMMENTS     specific actions to address the concerns identified in our report (see
             Appendix D). Specific comments on our draft report and site
             specific comments provided by management have been addressed
             in our report, as appropriate.

INSPECTOR    Management comments were responsive to our inspection report.
COMMENTS




Page 8                                    Management/Inspector Comments
Appendix A
SCOPE AND     The purpose of our inspection was to review the accountability and
METHODOLOGY   control of sealed radioactive sources at selected Department of
              Energy (DOE) field sites, including sites managed by the National
              Nuclear Security Administration (NNSA). The objective was to
              review the adequacy of procedures implemented by DOE and
              NNSA officials and contractors for controlling, safeguarding, and
              disposing of sealed radioactive sources.

              Fieldwork for this inspection was conducted from February 2001
              through July 2001. As part of our review, we visited six sites that
              we selected based on our determination that activities were
              conducted at the sites that involved or required the use of sealed
              radioactive sources. These were: the Nevada Test Site; the Rocky
              Flats Closure Project Site; the Y-12 National Security Complex;
              Oak Ridge National Laboratory; the Eastern Tennessee
              Technology Park (ETTP), formerly known as K-25; and the Pantex
              Plant.

              To accomplish our inspection objectives, we interviewed
              Headquarters officials in the Office of Nuclear Materials and Spent
              Fuel, Office of Environmental Management, and the Office of
              Price-Anderson Enforcement, Office of Environment, Safety and
              Health. We also interviewed Federal and contractor personnel at
              each of the six sites. We reviewed applicable Federal and local
              requirements pertaining to sealed radioactive sources. We also
              collected, reviewed, and analyzed extensive documentation from
              each site to assess the site’s ability to maintain accountability and
              control over its sealed radioactive sources. Further, we selected
              sources for our sample at each site that we believed were
              representative of the entire population of sources at the site. We
              also conducted walkthroughs of storage and end-user locations for
              the sealed radioactive sources in our sample, and physically
              examined the sources to verify their storage location and to assess
              the overall adequacy of accountability and control measures.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B
                        LACK OF ADHERENCE TO REQUIREMENTS


We reviewed the adequacy of procedures to receive, inventory, leak test, label, store, handle and
dispose of sealed radioactive sources, which were implemented by contractor personnel at six DOE
sites, including one site managed by the National Nuclear Security Administration. At each of the
sites, we identified examples involving a lack of adherence to either 10 C.F.R. 835 requirements or
specific site requirements and procedures. The following are some of the examples we identified
based on a review of a sample of sources at each site.

Nevada Test Site (NTS):

•   One accountable sealed radioactive source had not been leak tested or inventoried since May
    2000, as required by 10 C.F.R. 835.

•   At the time of our visit, officials were unable to document that two accountable sources had been
    leak tested and inventoried. Subsequently, documentation was found showing the two sources
    had been appropriately inventoried and leak tested.

•   Not all the documentation required by NTS site procedures was contained in files for three of the
    twelve sources that we reviewed.

•   While preparing for our site visit, NTS officials discovered that contrary to site procedures, an
    accountable source had been relocated for more than 60 days from its original storage location to
    another building without the new location being designated as the source’s storage location.

•   Radiation safety training for one Source Custodian had expired in the 1998-1999 time frame and
    had not been updated as required by site procedures.

•   It was not possible to determine from the NTS sealed radioactive source database when sources
    had been leak tested since the entry field for leak test dates contained only the term
    “inventoried.” 10 C.F.R. 835 requires leak tests be conducted every six months for sources in
    service, with auditable documentation.

Rocky Flats Closure Project Site (Rocky Flats):

•   55 sealed radioactive sources, consisting of 53 labeled “TS” (non-accountable) and two labeled
    “AS” (accountable), were listed in the Rocky Flats sealed radioactive source database as
    “missing over 90 days.” At the time of our review, 54 of the 55 sources could not be
    individually identified because the identification labels had been removed from the sources. The
    remaining source was later located in a controlled radioactive waste storage area. We were
    subsequently advised by Rocky Flats officials that they completed actions to enhance the
    administration and control of their sources.




Page 10                                                 Lack of Adherence to Requirements
•   Labels on some sources did not contain correct information. At one location, the labels on 30
    accountable sources did not contain the name and telephone number of the current Source
    Custodian, as required by local site procedures. We were subsequently advised by Rocky Flats
    officials that the contractor will evaluate local site requirements to determine if the requirement
    for the Source Custodian’s name and telephone number is appropriate.

•   At a second location, 30 mixed sources (sources containing more than one isotope) that had been
    reclassified from accountable to non-accountable status had labels that identified the sources as
    “AS” [accountable]. We were subsequently advised by Rocky Flats officials that following our
    review the 30 mixed sources were relabeled with the correct registry prefix “TS” [non-
    accountable].

•   At a third location, 10 “standards,” which contained special nuclear material and were treated by
    Rocky Flats as sealed radioactive sources in its ROCKMAS database, had source identification
    tags with the Source Custodian’s name and telephone number and/or the source tracking number
    crossed out. We were subsequently advised by Rocky Flats officials that following our review
    the ROCKMAS sources were relabeled with new tags and the custodians were cautioned not to
    permit improper changing of the labels.

•   In late February 2001, while reviewing files associated with the sources in our sample, Rocky
    Flats officials discovered that a required leak test had not been conducted for one of the
    accountable sources. Had we not requested the documentation for this particular source, it was
    possible the required leak test would not have been conducted within the required timeframe,
    since the tracking system did not indicate that a leak test was required for the source. The
    Source Custodian was tasked by the Radiation Source Program Administrator to conduct the leak
    test, which was required by 10 C.F.R. 835 to be conducted by March 10, 2001. We were
    subsequently advised by Rocky Flats officials that the required leak test was conducted on
    March 1, 2001.

We also had the following observations:

•   We were told by a Radiation Source Program Administrator that at the time he took
    responsibility for the sources under his control, he did not open any of the storage containers that
    contained the sources, including those that did not have Tamper Indicating Devices (TIDs) on
    them, to confirm that the sources were, in fact, in the containers. He added that it is possible that
    some day someone could check any of the containers that he did not open and discover the
    sources to be missing. Several Source Custodians told us that they would not accept
    responsibility for sources unless they verified the sources were in their containers. Rocky Flats
    officials subsequently advised us that in accordance with site procedures and ALARA [as low as
    reasonably achievable] principles, those sources that are either in containers sealed with a TID or
    those that are classified as Hazard Source Code 4 or 5 should not be opened to confirm that the
    sources are in the containers. They stated that the scheduled semi-annual inventory was
    performed in July 2001, and all accountable sources were verified to be present, either visually,
    by intact TID, or by radiation detection instrument readings for those sources with Hazard
    Source Codes 4 and 5.



Page 11                                                   Lack of Adherence to Requirements
•   Rocky Flats was the only site we visited that allowed sources to be removed from storage
    without being logged out. The site had a “15 minute” checkout rule that allowed workers to take
    a source from its storage cabinet for 15 minutes without signing for the source if the worker was
    located in the same room as the storage cabinet. According to the Radiation Source Program
    Administrator, the site “15 minute” checkout rule essentially states that, “if you are in view of
    the source locker,” you do not have to sign out the source. We were subsequently advised by
    Rocky Flats officials that the use of a 15 minute period cited in their procedure in lieu of a
    documented checkout provides an appropriate level of control for source usage, minimizes an
    unnecessary administrative burden, and is a generally accepted industry practice.

•   Standards containing special nuclear materials, which were tracked as sealed radioactive sources
    in the site’s ROCKMAS database, were sometimes moved from their storage locations without
    notification of the responsible Source Custodian. Although not a site requirement, the Source
    Custodians we interviewed expressed concern that they were usually not notified by the special
    nuclear materials safeguards and security workers when the locations of their standards were
    changed. We were subsequently advised by Rocky Flats officials that even though the
    designated custodians for ROCKMAS sources may not be notified of each material movement,
    the location of the material is readily available in a timely manner by accessing the ROCKMAS
    database.

Eastern Tennessee Technology Park (ETTP), formerly known as the K-25 Site:

•   One accountable sealed radioactive source had not been leak tested or inventoried as required by
    10 C.F.R. 835 since 1999. Although the source was listed on the ETTP inventory list, the ETTP
    Source Control Coordinator said that the database did not show the source was due for a leak test
    and also listed an incorrect individual as the Source Custodian. Since the last known Source
    Custodian did not have possession of the source, the Source Control Coordinator was initially
    unable to physically locate the source. When the source was located, a review of the tag showed
    the last inventory and leak test was conducted on December 12, 1999, which was two years past
    due.

•   Three other accountable sources had not been inventoried or leak tested as required by 10 C.F.R.
    835 during all of 1999 and the first half of 2000.

•   The tags on the three sources discussed above did not contain the name and telephone number of
    the correct Source Custodian or the correct Source Control Coordinator, as required by site
    procedures.

•   The tag on an accountable source at another location did not contain the name and telephone
    number of the correct Source Custodian, as required by site procedures. Also, the ETTP
    inventory list showed custody of the source being transferred between two individuals, neither of
    whom was the individual on the tag. In addition, the date on the tag for the leak test was not
    updated.




Page 12                                                 Lack of Adherence to Requirements
Oak Ridge National Laboratory (ORNL):

•   The back of the tags on six accountable sealed radioactive sources (two at one location and four
    at another) contained incorrect information. Four of the tags did not contain the name of the
    correct Source Custodian, while the remaining two tags did not contain the name and telephone
    number of the current Source Control Coordinator, as required by site procedures.

Y-12 National Security Complex:

•   Tags on sealed radioactive sources at one storage location did not always contain the Source
    Custodian’s telephone number, as required by site procedures.

•   A tag on one accountable source at another location did not have the Source Custodian’s
    telephone number, as required by site procedures.

Pantex Plant:

•   Since mid-2000, a Source Custodian allowed the Electronics Crafts Group at Pantex to use his
    sealed radioactive sources without signing them out from their designated storage bay, as
    required by site procedures. The Source Custodian said that it was his policy to allow the
    Electronics Crafts Group to use his sources at other locations as long as the sources were
    returned by the end of the workday. According to the Radiation Control Manager, this could
    possibly be a Price-Anderson Amendments Act [nuclear safety] violation, as well as a 10 C.F.R.
    835 [nuclear safety] rule flow-down violation.

•   The tags on two accountable and one non-accountable sources did not contain the correct name
    of the Source Custodian, as required by site procedures.




Page 13                                                 Lack of Adherence to Requirements
Appendix C

                                  SITE CORRECTIVE ACTIONS


Corrective Actions by the Nevada Test Site (NTS)

Following our visit to NTS, NTS officials notified us of actions taken to address the internal control
weakness we identified at the site. NTS officials adequately addressed two of our concerns: the
incident when an accountable sealed radioactive source was relocated without following site
procedures, and the incident concerning a Source Custodian who lacked the required radiation safety
training. Specifically, NTS officials: (1) conducted a review of training for all Source Custodians to
ensure training was current; (2) tasked the Health Physics Department to provide lessons learned
guidance; (3) required all Source Custodians to review the NTS “Source Accountability and Control
Directive,” CD-0441.007; and (4) tasked the Health Physics Department to enter a “Computerized
Requirement Evaluation, Assessment, and Technical Evidence System” (CREATES) action for
warehouse management to review the radioactive material receipt process.

NTS officials did not adequately resolve our concerns regarding the lack of documentation to show
that three accountable sources had been inventoried and leak tested, as required. Although NTS
officials subsequently provided documentation that showed two of the three sources were
inventoried and leak tested during the period in question, insufficient documentation was provided to
show the third source had been inventoried or leak tested during the second half of 2000. NTS
officials also did not address our concern that it was not possible to determine from the NTS sealed
radioactive source database when sources, which were in use, had been leak tested since the entry
field for leak test dates contained only the term “inventoried.”

Corrective Actions Taken by the Pantex Plant

Following our visit to the Pantex Plant (Pantex), Pantex officials notified us of actions taken to
address the internal control weakness we identified at the site. Pantex officials adequately
addressed our concern regarding mislabeled sealed radioactive sources. Source labels were
corrected and appropriate training was provided to all Source Custodians.

Pantex officials also adequately addressed our concern regarding the Source Custodian who
allowed users to borrow his sealed radioactive sources without tracking them. Pantex officials
reported that they had appropriate procedures in place, but retrained all of the Source Custodians
and users.

Corrective Actions Taken by Rocky Flats

In comments dated February 14, 2002, to our draft report, Rocky Flats officials advised of actions
taken to address the internal control weaknesses we identified at the site. Rocky Flats officials
adequately addressed our concerns regarding 55 sources that were listed on the site’s sealed
radioactive source database as “missing over 90 days.” They stated that the procedure for
administration and control of sources was enhanced to: (1) clarify the steps to be taken for
accountable and non-accountable sealed radioactive sources when processing excess sources for



Page 14                                                                   Site Corrective Actions
disposal; (2) include a new designation in the source control registry software to accurately identify
sources destined for disposal as radioactive waste and update the database accordingly; and (3)
initiate action to require review of the source control database for input errors.

Rocky Flats officials also adequately addressed our concern regarding 30 mixed non-accountable
sources that were not labeled as such. They stated that the 30 mixed sources were relabeled with the
correct registry prefix following our inspection. In addition, Rocky Flats officials adequately
addressed our concern regarding 10 ROCKMAS sources that were not labeled with information
regarding the current source custodian. They stated that the ROCKMAS sources were relabeled
with new tags and the custodians were cautioned not to permit improper changing of the labels.

Rocky Flats officials have not yet addressed our concern regarding 30 accountable sources that did
not contain the name and telephone number of the source custodian, as required by local site
procedures. They stated that their contractor would evaluate local site requirements to determine if
the requirement for the Source Custodian’s name and telephone number is appropriate.

Corrective Actions Taken by theY-12 National Security Complex

Concerns that we identified regarding incorrect labeling of sealed radioactive sources were
adequately addressed at the time of our site visit.

Corrective Actions Taken by Oak Ridge National Laboratory

Concerns that we identified regarding incorrect labeling of sealed radioactive sources were
adequately addressed at the time of our site visit.

Corrective Actions Taken by the Eastern Tennessee Technology Park (ETTP)

Concerns that we identified regarding one accountable source that had not been leak tested or
inventoried since 1999 were adequately addressed at the time of our visit. However, we have not
received information from ETTP officials regarding corrective actions taken to address our other
concerns with the control and accountability of sealed radioactive sources.




Page 15                                                                Site Corrective Actions
Appendix D

                          The Under Secretary of Energy
                                   Washington, DC 20585
                                     February 14, 2002

          MEMORANDUM FOR THE INSPECTOR GENERAL

          FROM:                    ROBERT G. CARD /s/
                                   UNDER SECRETARY FOR
                                   ENERGY, SCIENCE AND ENVIRONMENT

          SUBJECT:                Response to Draft Inspector General Report, "Inspection
                                  of the Accountability and Control of Sealed Radioactive Sources at
                                  Selected Department of Energy Sites"

          I am pleased that you "have found no evidence that the Department of Energy's (DOE)
          work with sealed radioactive sources had adversely impacted the safety and health of
          DOE and contractor employees or the public." I accept the recommendations given in
          this Inspector General (IG) draft report.

          To address your first recommendation, I have directed the responsible Secretarial
          Officers to review the IG report and to take appropriate action within the context
          of their Integrated Safety Management systems. This includes actions on the part of both
          the contractor and the DOE line management to ensure that the IG recommendations are
          addressed in their self-assessment process and the annual field assessment of the
          contractor in accordance with DOE line management oversight (DOE Policy 450.5).

          To address your second recommendation, General Gordon and I will issue a joint
          memorandum that it is our policy that sites be responsible for the disposition of their
          surplus sealed sources. We will inform the DOE complex (both NNSA and non-NNSA
          sites) of the surplus sealed radioactive source disposition planning capabilities
          developed by EM that are available to other interested offices in fiscal year 2002.
          Experts from the Non-Actinide Isotopes and Sealed Sources Management Group
          (NISSMG), established at the Albuquerque Operations Office, are assisting EM closure
          sites to disposition surplus nuclear materials, including sealed sources, stored at their
          facilities. For example, the NISSMG, working with experts from the Oak Ridge
          National Laboratory (ORNL), assisted Mound to transport Ionium ( 230Th) ampoules to
          the ORNL for recovery of the valuable radioisotope protactinium ( 231Pa) for research.




Page 16                                                                   Management Comments
                                                                            2


Specific comments on the draft report are included as Attachment 1. Site-specific
comments are addressed in Attachment 2. Coordination with NNSA has occurred
in preparing this response.

If you have any further questions, please feel free to contact Ms. Jessie Hill
Roberson, Assistant Secretary for Environmental Management, at (202) 586-7710,
or Ms. Patrice Bubar, Associate Deputy Assistant Secretary, Office of Integration
and Disposition, at (202) 586-5151.

Attachments
                             Department of Energy
                         National Nuclear Security Administration
                                     Washington, DC 20585

MEMORANDUM FOR                SANDRA L. SCHNEIDER
                              ASSISTANT INSPECTOR GENERAL
                               FOR INSPECTIONS

FROM:                         RICHARD M. SPEIDEL, DIRECTOR /s/ 12/17/01
                              POLICY AND INTERNAL CONTROLS
                               MANAGEMENT
                              OFFICE OF THE ASSOCIATE ADMINISTRATOR FOR
                               MANAGEMENT AND ADMINISTRATION

SUBJECT:                      REVISED COMMENTS ON INSPECTOR GENERAL
                              DRAFT REPORT



I have attached revised comments to the Office of the Inspector General's draft report,

"Inspection of the Accountability and Control of Sealed Radioactive Sources at Selected

Department of Energy Sites." This revision is being submitted after discussions with

your staff. Should you have any comments or questions, please do not hesitate to contact

me at 202-586-5009.


Attachments

cc: Director, Office of Environment, Safety and Health Operations Support
                          Management Decision—Revised
                         on Inspector General Draft Report
                    "Inspection of the Accountability and Control
                            of Sealed Radioactive Sources
                      at Selected Department of Energy Sites"

General Comments:

The National Nuclear Security Administration (NNSA) agrees that the accountability and
control of sealed radioactive sources is a vital element of our radiation protection
programs. The Administrator welcomes the Inspector General's report as a significant
contribution to our continuous feedback and improvement process. The NNSA agrees
that, while the issues identified in the report do not individually represent significant
concerns, they collectively indicate a pattern that demonstrates a weakness in compliance
with Departmental regulations and site-specific procedures and policies.

In accordance with DOE and NNSA policies, it is the responsibility of the cognizant
contractor to ensure compliance with DOE rules and Orders, and the responsibility of the
NNSA line managers to oversee the contractors' activities and processes. Furthermore, it
is the responsibility of NNSA line managers to ensure that adequate guidance and support
is provided to the contractors where necessary and appropriate. Therefore, NNSA
concurs with both recommendations directed towards it, as they are stated, and agrees
that they are appropriate, necessary, and sufficient to address the issues of concern.

Assuming that the report's recommendations are not revised, NNSA intends to take the
following actions upon the issuance of the final inspection report:

1.     The NNSA will issue a memorandum to all NNSA field elements. This
       memorandum will direct them to ensure that contractor line management under
       their cognizance is aware of the concerns identified in the report, and that the
       contractor takes appropriate action to identify and correct any potential
       weaknesses in their sealed radioactive source control programs. In addition, the
       NNSA field elements will be directed to ensure that their daily and/or periodic
       oversight activities include a focus on the contractors' sealed radioactive source
       control programs.

2.     The NNSA will ensure that NNSA works with the Office of Environmental
       Management (EM) and other DOE elements towards the development and
       dissemination of guidance for the disposal or re-application of unwanted
       radioactive sources. As noted in the draft IG report, NNSA recognizes that there
       are EM sponsored technical resources such as the Non-Actinide Isotopes and
       Sealed Sources (Nuclear) Material Management Group (NISSMG) that have
       experience in the disposition planning of excess sealed sources. We will
       communicate to contractor line management, the capabilities and availability of
       these technical resources such as NISSMG to support the NNSA sites seal source
       management program.
                                                                    IG Report No. DOE/IG-0544

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
